                            Department of the Interior
                            Office of Inspector General




           AUDIT REPORT



               U.S. Fish and Wildlife Service
            Federal Assistance Program Grants
           Awarded to the State of Mississippi,
          Department of Marine Resources, From
           July 1, 2004, Through June 30, 2006




Report No. R-GR-FWS-0004-2007             June 2007
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191

                                                                                       June 6, 2007

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
           Awarded to the State of Mississippi, Department of Marine Resources, From July 1,
           2004, Through June 30, 2006 (No. R-GR-FWS-0004-2007)

        This report presents the results of our audit of costs incurred by the State of Mississippi
(State), Department of Marine Resources (Department), under grants awarded by the U.S. Fish
and Wildlife Service (FWS). The FWS provided the grants to the State under its Federal
Assistance Program for State Wildlife and Sport Fish Restoration (Federal Assistance Program).
The audit included total reported outlays of approximately $2.1 million on 22 FWS grants that
were open during State fiscal years (SFYs) ended June 30 of 2005 and 2006 (see Appendix 1).
The audit also covered Department compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of fishing license revenues and the
reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We also identified issues that require FWS attention, including
inadequate data backup, inadequate drawdown procedures, and charges for budgeted instead of
actual payroll costs.

        We provided a draft of the report to FWS and the Department for response. We
summarized Department and FWS Region 4 responses after each recommendation, as well as our
comments on the responses. FWS stated they will work with the Department when preparing the
corrective action plan. We list the status of each recommendation in Appendix 2.

        Please respond in writing to the findings and recommendations included in this report by
September 4, 2007. Your response should include information on actions taken or planned,
targeted completion dates, and titles of the officials responsible for implementation.

        If you have any questions regarding this report, please contact Mr. Lawrence Kopas, the
audit team leader, at 703-487-5358 or me at 703-487-5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
                                                Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife and Sport Fish
Restoration. Under the Federal Assistance Program, FWS provides grants to states to restore,
conserve, manage, and enhance their sport fish and wildlife resources. The Department is
responsible only for marine sport fish resources. The Acts and federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse the states up to 75
percent of the eligible costs incurred under the grants. The Acts also require that hunting and
fishing license revenues be used only for the administration of the state fish and wildlife agency.
Finally, federal regulations and FWS guidance require states to account for any income they earn
using grant funds.

Objectives

Our audit objectives were to determine whether the Department:

           claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Act and related regulations, FWS guidelines, and the grant agreements;

           used State fishing license revenues solely for Department fish and wildlife program
           activities; and

           reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $2.1 million on 22 FWS grants that were
open during SFYs 2005 and 2006 (see Appendix 1). Four grants did not have any outlays during
the audit period. We performed our audit at Department headquarters located in Biloxi,
Mississippi. No other locations were visited due to damage resulting from Hurricane Katrina.
This audit was performed to supplement, not replace, the audits required by the Single Audit Act
amendments of 1996 and the Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and performed other auditing


1
    As amended 16 U.S.C. §§ 669 and 777, respectively.


                                                         2
procedures that we considered necessary under the circumstances. Our tests and procedures
included:

       examining the evidence that supports selected expenditures charged to the grants by the
       Department;

       reviewing transactions and supporting documentation related to purchases, other direct
       costs, drawdowns of reimbursements, equipment, and other property;

       interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable; and

       determining whether the Department used fishing license revenues solely for its sport fish
       and wildlife program purposes.

We also identified the internal controls over transactions recorded in the labor accounting
systems and tested its operation and reliability. Based on the results of the initial assessment, we
assigned a level of risk to the system and selected a judgmental sample of transactions for
testing. We did not project the results of tests to the total population of recorded transactions,
nor did we evaluate the economy, efficiency, or effectiveness of Department operations.

Prior Audit Coverage

On November 4, 1998, we issued “U.S. Fish and Wildlife Service Federal Aid Grants to the State
of Mississippi, Department of Marine Resources, for the Fiscal Years Ended June 30, 1996 and
1997” (Report No. 99-E-78). We followed up on all recommendations in the report and
determined that the Department of the Interior, Office of the Assistance Secretary for Policy,
Management and Budget considered them resolved and implemented.

We reviewed the State’s most recent SFY2005 Comprehensive Annual Financial Report and
Single Audit Report. Our review of the Single Audit Report found that the Department’s Sport
Fish and Wildlife Program grants were not considered major programs and were assessed a low
risk. In addition, there were no other audits of the Department or its programs during the audit
period.




                                                 3
                                      Results of Audit

Audit Summary

We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified
conditions that resulted in the findings listed below. We discuss these findings in more detail in
the Findings and Recommendations Section.

       Inadequate Backup System for Federal Assistance Program Data. The Department
       did not have adequate procedures for backing up grant accounting data files to prevent
       loss in the event of a disaster.

       Inadequate Drawdown Procedures. Department personnel drew down (requested
       reimbursement for) the federal share of grant expenditures without ensuring they
       expended an adequate amount to meet the State matching expenditure requirement.

       Payroll Overcharges to a Federal Assistance Program Grant. Department personnel
       did not ensure that payroll charges to Federal Assistance Program grants were for actual
       time worked on the grants.

Findings and Recommendations

A.     Inadequate Backup System for Federal Assistance Program Data

       A basic management control objective for any organization is to protect the data
       supporting its critical operations. Protecting such data requires periodically backing up
       data files and storing them at an off-site location. The Department’s backup system is
       inadequate to prevent loss of financial data for its Federal Assistance Program grants. In
       the event a disaster occurred, critical data files could be lost.

       The Government Accountability Office Federal Information Systems Controls Audit
       Manual, Chapter 3.6 discusses service continuity and identifies various steps that an
       organization can take to prevent or minimize the potential damage to and/or interruption
       of automated operations. These steps include routinely duplicating and backing up data
       files, computer programs, and critical documents with offsite storage.

       The Accounting and Finance Director, who is responsible for tracking Federal Assistance
       Program grant costs, maintains the grant cost data in Excel spreadsheets on a local hard
       drive. The hard drive is not connected to the Department’s network. The Director backs
       up the data on disks, which are kept in the Director’s desk. No additional backup data is
       maintained for this grant cost data.




                                                 4
     The Department does back up network data on a daily, weekly, and monthly basis.
     However, the backup data is not exported to an off-site location. A recently completed
     network assessment identified this lack of an off-site storage location as a control
     weakness. The Department has not developed policies and procedures that require
     backup data files to be adequately safeguarded.

     These weaknesses in the Department’s backup system increase its risk of losing the
     backup data files containing financial information, in the event of a disaster. Such a loss
     would require the Department to reconstruct the Excel spreadsheets related to Federal
     Assistance Program grants to be able to report or provide support for grant expenditures
     claimed.

     Recommendation

     We recommend that FWS require the Department to ensure that Federal Assistance
     Program grant data be kept on the Department’s local area network and that backup
     network data be stored off-site to prevent loss of the data in case of a disaster.

     Department Response

     Department officials concurred with the recommendation and stated they will work with
     FWS to comply with the recommendation.

     FWS Response

     FWS Region 4 management concurred with the recommendation and stated they will
     develop a corrective action with the Department.

     OIG Comments

     FWS Region 4 management concurs with the recommendation, but additional
     information is needed in the corrective action plan, including the actions taken or
     planned; targeted completion dates; titles of the officials responsible for implementation;
     and verification that FWS headquarters officials reviewed and approved of actions taken.

B.   Inadequate Drawdown Procedures

     Under the Federal Assistance Program, FWS may reimburse states up to 75 percent of
     grant expenditures, provided the state expends the required matching share of grant costs.
     This requirement also applies to sub-grantees. The University of Southern Mississippi
     (University) is a sub-grantee of the Department on some Federal Assistance Program
     grants. The University, and subsequently the Department, did not expend an adequate
     amount of State matching share before drawing down (requesting reimbursement for) the
     federal share of expenditures, as required.




                                              5
The Code of Federal Regulations (50 C.F.R. § 80.16) requires states to incur the costs for
approved projects before they are reimbursed the federal share of those costs.
Additionally, 2 C.F.R. § 225, Appendix A, Item C1(j), which outlines basic guidelines on
cost principles, states that for a cost to be considered allowable, a grantee must provide
adequate documentation. Finally, 50 C.F.R § 80.12 limits federal reimbursement to 75
percent of eligible costs incurred in the completion of approved work.

Department officials relied on the University to spend an adequate amount on matching
expenses before the University invoiced the Department for the drawdown. However, the
University did not ensure it met the matching requirement. For example, grant F-131-5,
for which the University was the sub-grantee, had a matching requirement of 26.9
percent. A March 21, 2005 invoice for $40,171 identified a charge to the grant of
$32,092 in federal share costs (79.9 percent) with a State match of only $8,079 (20.1
percent). The Department drew down the $32,092 on April 21, 2005. This drawdown
resulted in reimbursement for $2,727 in costs for which sufficient matching costs had not
been incurred. Department officials told us that drawdowns were made with the
expectation that, by the end of the grant period, the match requirement would be satisfied.

We are not questioning the costs associated with having an inadequate matching share of
State expenditures, since the University expended sufficient funds by the end of the grant
period. However, without procedures to ensure adequate match is obtained before
drawing down funds, the potential exists for the State to receive excess federal
reimbursement.

Recommendation

We recommend that FWS require the Department to establish and implement policies and
procedures that ensure sufficient State match is available before funds are drawn down
during the grant period.

Department Response

Department officials concurred with the recommendation and stated they will work with
FWS to comply with the recommendation.

FWS Response

FWS Region 4 management concurred with the recommendation and stated they will
develop a corrective action with the Department.

OIG Comments

FWS Region 4 management concurs with the recommendation, but additional
information is needed in the corrective action plan, including the actions taken or
planned; targeted completion dates; titles of the officials responsible for implementation;
and verification that FWS headquarters officials reviewed and approved of actions taken.


                                         6
C.   Grant Payroll Overcharges

     The State financial systems calculate charges for payroll costs to Federal Assistance
     Program grants based on budgeted estimates of hours employees will work on a grant
     instead of the actual time worked. It does this by applying a default percentage of
     employee time to the monthly pay and employer’s portion of fringe benefits, and
     allocating the resulting dollar amount to the relevant grant. The Department did not
     adjust the payroll charges when actual time an employee worked under a grant differed
     from the default percentage.

     Title 50 C.F.R. § 80.16 requires states to incur the costs for approved projects before they
     are reimbursed the federal share of those costs. Additionally, 2 C.F.R. § 225.55, Item
     C1(j), which outlines basic guidelines on cost principles, states that for a cost to be
     considered allowable, a grantee must provide adequate documentation.

     The payroll cycle in Mississippi is monthly. The Statewide Payroll and Human Resource
     system pays employees 1/12 of their annual salary each month unless other actions are
     taken, such as termination of employment. All Department employees submit a monthly
     timesheet to the payroll office in Biloxi. Because the payroll system has default cost
     percentages for charging payroll costs to grants, pay period costs are calculated based on
     these percentages regardless of the actual time worked during the month on a particular
     grant. Adjustments required to the current monthly pay should be done, according to
     Department officials, in the following month, based on hours recorded on the timesheets.
     For example, adjustments for May would be done in June, based on May’s timesheets.

     Based on our tests for one month of the four employee timesheets included in our review,
     an adjustment to annual payroll charges was necessary but not made. For example, one
     employee had a default percentage of 65.10 percent in the payroll system, but the
     employee’s timesheet showed that he only worked 46.3 percent of his time during the
     month on grant F-126-7. This situation led to 65.10 percent of payroll charges for that
     individual to be allocated to the grant in May 2006 rather than 46.3 percent. The failure
     to adjust the discrepancy in June resulted in a $542.75 (federal share) overcharge to grant
     F-126-7 for the May 2006 pay period.

     We are not questioning this amount because it is not material. However, material
     overcharges to the grants are possible if the Department does not adjust charges to the
     grants for payroll, when necessary.

     Recommendations

     We recommend that FWS require the Department to:

     1.     establish and implement procedures to ensure that when employees charge time to
            more than one grant, payroll charges are adjusted to reflect the actual hours
            worked on those grants, and




                                              7
2.     review the hours charged for the employee charging time on grant F-126-7 to
       ensure that appropriate adjustments were made to reflect actual time worked.

Department Response

Department officials concurred with the recommendations and stated they will work with
FWS to comply with the recommendations.

FWS Response

FWS Region 4 management concurred with the recommendations and stated they will
develop corrective actions with the Department.

OIG Comments

FWS Region 4 management concurred with the recommendations, but additional
information is needed in the corrective action plan, including the actions taken or
planned; targeted completion dates; titles of the officials responsible for implementation;
and verification that FWS headquarters officials reviewed and approved of actions taken
by the Department.




                                         8
                                                                                                Appendix 1

                        MISSISSIPPI DEPARTMENT OF MARINE RESOURCES
                         FINANCIAL SUMMARY OF REVIEW COVERAGE
                             JULY 1, 2004 THROUGH JUNE 30, 2006



                           Grant Number            Grant Amount           Claimed Costs1
                             F-80-10                    $278,000                    $0
                             F-80-11                     170,000                     0
                             F-95-14                      75,000                75,059
                             F-95-15                      75,000                74,857
                             F-95-16                      75,000                     0
                             F-118-7                     130,000               129,393
                             F-118-8                     180,000               133,371
                             F-118-9                     236,000                34,830
                             F-122-3                      60,000                41,084
                             F-122-4                      60,000                29,738
                             F-122-5                      60,000                36,895
                             F-126-5                     190,000               190,201
                             F-126-6                     190,000               198,535
                             F-126-7                     190,000                82,829
                             F-131-4                     260,775               256,485
                             F-131-5                     532,482               246,259
                             F-132-4                     118,903               122,021
                             F-132-5                     119,205               116,244
                             F-132-6                     119,205                     0
                             F-135-3                     227,100               227,039
                             F-136-2                      58,466                58,614
                             F-137-1                      53,295                53,375
                                                   $3,458,431.00         $2,106,829.00




1
    Represents total outlays shown on State accounting and financial status reports (SF-269).



                                                            9
                                                                           Appendix 2


             MISSISSIPPI DEPARTMENT OF MARINE RESOURCES
            STATUS OF AUDIT FINDING AND RECOMMENDATIONS


Recommendations                Status                        Action Required
A, B, C.1 and C.2   FWS management concurred        Additional information is needed in
                    with the recommendations,       the corrective action plan, including
                    but additional information is   the actions taken or planned to
                    needed.                         implement the recommendations,
                                                    targeted completion date(s), title of
                                                    the official(s) responsible for
                                                    implementation, and verification that
                                                    FWS officials reviewed and
                                                    approved of actions taken or planned
                                                    by the Department. We will refer
                                                    the recommendations if not resolved
                                                    and/or implemented at the end of 90
                                                    days (after September 4, 2007) to
                                                    the Assistant Secretary for Policy,
                                                    Management and Budget for
                                                    resolution and/or tracking of
                                                    implementation.




                                        10
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
